Noo

_

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

MICHAEL ROBBINS,
Petitioner

v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent
PROOF OF SERVICE
I, Matthew A. Siroka, declare that on this date, October 27, 2020, as required by

Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS AND PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope
containing the above documents in the United States Mail properly addressed to
each of them and with first-class postage prepaid, or by deliver to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:

Office of the Attorney General
Xavier Becerra, Attorney General
450 Golden Gate Avenue, Suite 11000
San Francisco, CA 94103
(Respondent)
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 27, 2020, at San Rafael, California.

Declarant

